Report No. D-2011-037                    February 09, 2011




     Marine Corps Response to Nonlethal Laser Dazzler
                     Urgent Request
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ANSI                          American National Standards Institute
CDIB                          Capabilities Development and Integration Board
CFR                           Code of Federal Regulations
CHPLD                         Compact High Power Laser Dazzler
GBD-IIIC                      Green Beam Designator-III Custom
IG                            Inspector General
LSRB                          Laser Safety Review Board
MARADMIN                      Marine Corps Administrative Message
MARCORSYSCOM                  Marine Corps Systems Command
MCCDC                         Marine Corps Combat Development Command
MCO                           Marine Corps Order
MEF                           Marine Expeditionary Force
MNF-W                         Multi-National Force-West
MROC                          Marine Corps Requirements Oversight Council
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFEN SE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704



                                                                                     Febnmry 9, 2011
MEMORANDUM FOR COMMANDANT OF THE MARINE CORPS
              ASSISTANT COMMANDANT OF THE MARINE CORPS
              NAVAL INSPECTOR GENERAL
              DEPUTY COMMANDANT FOR COMBAT DEVELOPMENT AND
                 INTEGRAnON
              INSPECTOR GENERAL OF THE MARINE CORPS

SUBJECT: Maline Corps Response to Nonlethal Laser Dazzler Urgent Request
         (Report No. D-2011-037)

We are providing this report for your infonnation and use. We considered management comments
on a draft of this report when preparing the final report. At the request of the Assistant
Commandant of the Marine Corps, we reviewed the Marine COlpS decisionmaking process for
responding to the urgent request of deployed Marines for a nonlethal laser dazzler capability. Marines
needed this capability to more effectively secure checkpoints and convoys in Iraq by temporarily
obscuring the vision of civilians and detell'ing those civilians from getting too close and triggering
an unnecessary escalation of force incident. Delays left Marines deployed to Iraq in 2006 without a
critical nonlethal weapon to more effectively perform security missions for nearly 6 months.
However, we did not find any evidence of criminal negligence in Marine COlpS processing of the July
2005 laser dazzler urgent request.

The comments from the Deputy Commandant for Combat Development and Integration are
responsive and conform to the requirements of DoD Directive 7650.3. Therefore, we do not require
any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-920 I
(DSN 664-920 I).                                                                   '




                                             Richard B. Jolliffe
                                             Assistant Inspeclor General
                                             Acquisition and Contract Management
Report No. D-2011-037 (Project No. D2009-D000AE-0210.000)                                        February 9, 2011


             Results in Brief: Marine Corps Response to
             Nonlethal Laser Dazzler Urgent Request

What We Did                                                Management Actions Taken
The Assistant Commandant of the Marine Corps               The Marine Corps issued Marine Corps
requested that we review the Marine Corps                  Order 3900.17 in October 2008 to improve the
decisionmaking process regarding the urgent need           processing of urgent requests and track their
for a nonlethal laser dazzler capability (see figure       status. To accomplish this goal, the Marine Corps
for an example of a nonlethal laser dazzler).              Combat Development Command created the
Marines needed this capability to more effectively         Web-based Virtual Urgent Universal Need
secure checkpoints and convoys in Iraq by                  Statement system, which provides users with
temporarily obscuring the vision of civilians and          visibility of the review chain and status for urgent
deterring those civilians from getting too close and       requests. The establishment of this Web-based
triggering an unnecessary escalation of force              system should improve the efficiency of the
incident. However, Marines did not receive a               urgent needs process.
materiel solution for this dazzler capability during
their forward deployment in 2006. The II Marine            What We Recommend
Expeditionary Force requested the capability in            We recommend that the Commandant of the
2005. In 2006, the I Marine Expeditionary Force            Marine Corps perform a review of the
replaced the II Marine Expeditionary Force in              circumstances that led to the purchase of
Iraq. Both Marine Expeditionary Forces                     the 28 unapproved lasers and, if appropriate,
supported the same security mission and needed             initiate administrative action.
the same nonlethal laser dazzler capability.
                                                           Management Comments and
What We Found                                              Our Response
We did not find any evidence of criminal                   The Deputy Commandant for Combat
negligence in Marine Corps processing of the July          Development and Integration agreed with the
2005 laser dazzler urgent request. However,                recommendation. The Marine Corps comments
Marine Corps Combat Development Command                    were responsive, and the actions met the intent of
did not respond to the II Marine Expeditionary             the recommendation. However, Marine Corps
Force (Forward) urgent request for a nonlethal             comments disagreed that Marine Corps Combat
laser dazzler capability in a timely manner.               Development Command did not respond timely to
Marine Corps officials took 15 months to process           the urgent request. Although not required to
this urgent request that could have been fulfilled         comment, the Assistant Secretary of the Navy
6 months earlier had Marine Corps leadership at            (Research, Development and Acquisition) agreed
two commands exercised sufficient oversight and            with the recommendation. See the
effectively monitored the progress of the urgent           recommendation table on the back of this page.
request. Nearly 4 months elapsed because Marine
Corps Combat Development Command                            Figure. Green Beam Designator-III Custom
entertained the I Marine Expeditionary Force                         Nonlethal Warning Laser
(Forward) insistence for an unapproved laser
dazzler solution rather than pursue a viable Laser
Safety Review Board approved solution. An
additional 2 months elapsed because the
administrative processing of the urgent request
lagged. As a result, Marines deployed to Iraq
in 2006 were left without a nonlethal laser dazzler
capability. Further, after the approved lasers were                        Source: B.E. Meyers
procured, the I Marine Expeditionary Force
(Forward) purchased 28 unapproved lasers costing
$323,324, which were not fielded in Iraq.


                                                       i
Report No. D-2011-037 (Project No. D2009-D000AE-0210.000)                  February 9, 2011



Recommendation Table

                                  Recommendation            No Additional Comments
        Management
                                 Requiring Comment                 Required
Commandant of the Marine
                                                                      1
Corps




                                        ii
Table of Contents


Introduction                                                                        1

      Objective                                                                     1
      Background                                                                    1
      Review of Internal Controls                                                   3

Finding. Delayed Fulfillment of Nonlethal Laser Dazzler Capability                  4

      Untimely Response to the Urgent Request                                       4
      Improvement Needed in the Oversight of the Urgent Needs Process               6
      Marines Left Without a Laser Dazzler for 6 Months                             7
      Contracts Awarded for Laser Dazzlers                                          7
      Management Actions Taken to Improve Process                                   9
      Conclusion                                                                    9
      Management Comments on the Finding and Our Response                           9
      Recommendation, Management Comments, and Our Response                        10

Appendices

      A. Scope and Methodology                                                     12
            Prior Coverage                                                         13
      B. Laser Dazzler Capability Transition to a Program of Record                14
      C. Guidance on the Urgent Needs Process and Nonlethal Lasers                 16
      D. Timeline for Fulfilling the Urgent Request for Laser Dazzler Capability   20


Glossary                                                                           23

Management Comments

      Marine Corps                                                                 26
      Department of the Navy                                                       29
Introduction
Objective
The objective of the audit was to determine whether Marine Corps managers effectively
responded to the urgent request of deployed Marines to acquire a nonlethal laser dazzler
capability in accordance with Federal and Defense acquisition regulations. See Appendix A
for a discussion of the scope and methodology.

Background
This is the second audit we initiated in response to a request from the Assistant Commandant
of the Marine Corps. Specifically, the Assistant Commandant stated that:

              allegations surfaced that the Marine Corps had not acted with alacrity in
              responding to the needs of deployed units, and specifically that
              mismanagement on the part of the Marine officials cost Marine lives by not
              acquiring Mine Resistant Ambush Protected (MRAP) vehicles or laser
              dazzlers in a timely fashion.

The Assistant Commandant’s request also referenced allegations that criminal negligence
occurred. We did not find any evidence of criminal negligence in Marine Corps processing
of the July 2005 laser dazzler urgent universal need statement.

The Office of Inspector General issued Report No. D-2009-030, “Marine Corps
Implementation of the Urgent Universal Needs Process for Mine Resistant Ambush Protected
Vehicles,” December 8, 2008, in its first response to the request.

Mission of Marine Expeditionary Forces in Iraq
The Marine Expeditionary Forces (MEFs) provided air, ground, and logistics support to the
United States Central Command as the Multi-National Force-West (MNF-W). MNF-W
supported the Iraqi civil authorities and security forces securing the MNF-W area of
operations, primarily the Al Anbar province, which includes the cities of Fallujah,
Ar Ramadi, Al Qaim, and Haditha. When deployed as the lead element, the MEF is
designated as MEF (Forward). The I MEF and II MEF rotated forward deployments
annually to serve the same mission of commanding the MNF-W.

               Multi-National                      Period of Forward
                  Force-West                       Deployment to Iraq
                I MEF (Forward)                 March 2004−February 2005
               II MEF (Forward)                 March 2005−February 2006
                I MEF (Forward)                 March 2006−February 2007
               II MEF (Forward)                 March 2007−February 2008




                                                  1
Inadequate Security Measures Available for Deployed Marines
In June 2005, the Commanding General, II MEF (Forward), acknowledged that Marine
operating forces experienced an increase in lethal encounters and casualties while securing
checkpoints, entry control points, convoys, and perimeter positions in Iraq. Both I MEF and
II MEF supported this security mission when forward and relied on flares and smoke signals
to send warnings to civilians approaching Marine positions. These methods were not always
effective, and the Marines needed a nonlethal capability to aid them in their security mission.
Laser dazzlers provide a nonlethal capability by emitting an intense light capable of
temporarily obscuring the vision of approaching individuals; however, using lasers poses a
risk of serious eye injury and permanent blindness. This mode of employing a laser, shining
a laser directly into the face or eyes, increases the inherent dangers of using the laser. Using
nonlethal laser dazzlers would give Marine operating forces an additional capability to
increase stand-off distances, safeguard civilians who venture too close to Marine positions,
and help prevent unwarranted escalation of force incidences; however, DoD policy prohibits
the use of lasers designed to cause permanent blindness. Operating procedures and laser
safety measures are essential to ensure the safe and proper use of the lasers.

Laser Dazzler Capability Needed
The Commanding General, II MEF (Forward), submitted an urgent universal need statement
for a nonlethal laser dazzler capability on June 9, 2005. 1 This urgent universal need
statement initiated an urgent request that, if not filled, would increase the risk of unwarranted
escalation of force incidents and the difficulty of safeguarding the lives of civilians. The
Marine Forces Central Command approved the urgent request on July 27, 2005. The Marine
Forces Central Command identified the laser dazzler urgent request as a level two priority
because higher priority was placed on requests for countermine improvised explosive
devices; force protection; command, control, and communication; surveillance; and language
translation. The urgent request specifically identified the Compact High Power Laser
Dazzler (CHPLD) as a materiel solution. However, the urgent request did not identify
specific performance requirements in operationally relevant and measurable terms, so Marine
Corps Combat Development Command (MCCDC) in conjunction with the II MEF (Forward)
defined the following performance parameters.

    •   The laser dazzler should provide a capability that temporarily obscures the vision
        during:
            o nighttime operations at a minimum of 250 meters (about 820 feet) (threshold)
              with a desired range of 300 meters (about 984 feet) (objective) and
            o daytime operations at a minimum of 100 meters (about 328 feet) (threshold)
              with a desired range of 150 meters (about 492 feet) (objective).
    •   The laser dazzler should attach to Marine Corps rifles, light machine guns, vehicles,
        or acoustic hailing devices to be seamless with the use of lethal force.


1
  Marine Corps Combat Development Command is transitioning the laser dazzler capability to a program of
record. See Appendix B for the status of the laser dazzler capability transition.


                                                    2
Established Urgent Needs Process
The Marine Corps established an urgent needs process to enable deployed commanders to
request critical equipment that is needed by operating forces conducting combat or
contingency operations. Marine operating forces deployed or preparing to deploy use urgent
universal need statements to identify and submit their urgent requests to MCCDC, which
should promptly identify a proposed solution to fulfill the urgent request. In instances of
nonlethal weapons and lasers, additional approvals are needed. Legal and treaty reviews are
needed to ensure that the proposed solution and concept of employment meets statutory laws
and treaties. The Navy Laser Safety Review Board (LSRB) evaluates the potential hazards
of using the laser and renders an opinion on its safety and use. After MCCDC identifies a
materiel solution that meets legal and safety requirements, the Chairman, Capabilities
Development and Integration Board 2 (CDIB), reviews the proposed solution and
recommends whether it is a viable option to the Deputy Commandant for Combat
Development and Integration. 3 Once a determination is made, the Marine Corps
Requirements Oversight Council (MROC) reviews and approves a solution and concept of
employment to fulfill the urgent request. The Marine Corps updated the urgent needs
process in 2008. See Appendix C for guidance on the urgent needs process and nonlethal
lasers.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a system of internal controls that
provides reasonable assurance about the effectiveness of the controls. We identified an
internal control weakness in the Marine Corps response to the July 2005 urgent request for a
nonlethal laser dazzler capability. We determined that MCCDC did not respond to the
II MEF (Forward) urgent request for a nonlethal laser dazzler capability in a timely manner.
MCCDC allowed the I MEF (Forward) insistence for an unapproved laser dazzler and an
ineffective administrative processing to delay the fielding of the laser dazzler capability.
This delay left Marines deployed to Iraq in 2006 without critical equipment for more than
half of their forward deployment. Although we identified the internal control weakness,
recommendations in prior reports and Marine Corps issuance and implementation of Marine
Corps Order (MCO) 3900.17, “The Marine Corps Urgent Needs Process (UNP) and the
Urgent Universal Need Statement (Urgent UNS),” October 7, 2008, should correct the
problem by improving the urgent needs process. MCCDC also established a virtual tracking
system that provides visibility over urgent requests for all parties and help prevent future
delays in fielding other critical equipment. We will provide a copy of the final report to
senior officials responsible for internal controls at MCCDC and the United States Marine
Forces Central Command.




2
  The CDIB is composed of subject matter experts who convene to recommend a course of action based on the
assessment of the Doctrine, Organization, Training, Materiel, Leadership and Education, and People and
Facilities spectrum.
3
  The Deputy Commandant for Combat Development and Integration is also the Commanding General, Marine
Corps Combat Development Command.


                                                    3
Finding. Delayed Fulfillment of Nonlethal
Laser Dazzler Capability
MCCDC did not respond to the II MEF (Forward) urgent request for a nonlethal laser
dazzler capability in a timely manner. Providing the deployed Marines with this
capability would allow them to more effectively secure checkpoints and convoys in Iraq
by temporarily obscuring the vision of approaching individuals to deter them from getting
too close and triggering an unnecessary escalation of force incident. However, extreme
care must be taken in employing lasers to prevent serious eye injury and permanent
blindness. The Marine Corps took 15 months to process this urgent request for a nonlethal
laser dazzler capability that could have been fulfilled 6 months earlier had Marine Corps
leadership at two commands exercised sufficient oversight and effectively monitored the
progress of the urgent request. Nearly 4 months elapsed because MCCDC entertained the
I MEF (Forward) insistence for an unapproved laser dazzler solution rather than pursue a
viable Laser Safety Review Board approved solution. An additional 2 months elapsed
because the administrative processing of the urgent request lagged. As a result, the
Marines deployed to Iraq in 2006 were unnecessarily left without a nonlethal laser dazzler
capability. Further, after the approved lasers were procured, the I MEF (Forward)
purchased 28 unapproved lasers, costing $323,324, which were not fielded in Iraq.

Untimely Response to the Urgent Request
MCCDC did not respond to the II MEF (Forward) urgent request for a nonlethal laser dazzler
capability in a timely manner. The II MEF (Forward) submitted an urgent request,
June 9, 2005, 4 months after the II MEF rotated to Iraq because they experienced an increase
in lethal encounters and casualties while securing checkpoints, entry control points, convoys,
and perimeter security positions. However, at the end of the II MEF’s rotation, 8 months
later, the deployed Marines still did not have a nonlethal laser dazzler capability. Fifteen
months elapsed from the date MCCDC received the urgent request to the date the Marine
Corps Systems Command (MARCORSYSCOM) awarded a contract to procure 400 laser
dazzlers. MCCDC could have shortened the urgent needs process by 6 months had Marine
Corps leadership exercised sufficient oversight and effectively monitored the progress of the
urgent request.

On initial receipt of the urgent request in July 2005, MCCDC responded promptly. MCCDC
worked closely with the Joint Non-Lethal Weapons Directorate to identify a potential
materiel solution. The Joint Non-Lethal Weapons Directorate identified four lasers for the
Air Force Research Laboratory to evaluate. The four lasers evaluated were CHPLD, Green
Beam Designator-III Custom (GBD-IIIC), and Xtreme Alternative Defense Systems
Photonic Disruptor/Green models 105 and 200. The Air Force Research Laboratory test
results indicated that both the CHPLD and the GBD-IIIC laser met or exceeded the
performance parameters specified by the II MEF (Forward). In addition,
MARCORSYSCOM considered additional factors such as cost, ruggedization, 4 production


4
    Ruggedization is the act of making a piece of equipment durable in a military environment.


                                                         4
capability, and battery type to rank the possible laser dazzler solutions. The Commander,
MARCORSYSCOM, presented both lasers, CHPLD and GBD-IIIC laser, as possible
alternatives to the Commanding General, II MEF (Forward), but considered the GBD-IIIC
laser a more viable option. The Commanding General, II MEF (Forward), accepted the
GBD-IIIC laser option.

MCCDC and MARCORSYSCOM then sought the nonlethal systems and laser weapons
reviews for the GBD-IIIC laser, to ensure that the proposed solution and concept of
employment met the statutory laws and treaties. These reviews helped to ensure that the
Marines would employ the laser dazzler in a way that did not cause serious eye injury or
permanent blindness:
   •   Naval Surface Warfare Center – Dahlgren Division (Dahlgren) evaluated the
       GBD-IIIC laser for safety and radiation hazard. Dahlgren also evaluated the
       GBD-IIIC laser for compliance with Navy and Marine Corps laser policy.
   •   Naval Judge Advocate General determined that the GBD-IIIC laser complied with
       treaty obligations, Federal laws, and international laws of armed conflicts.
   •   The Director, Naval Treaty Implementation Program, determined that the GBD-IIIC
       laser complied with arms control treaties and international agreements.
   •   The Chairman, Navy LSRB, temporarily approved the safety and use of the
       GBD-IIIC laser.

By the end of February 2006, MCCDC and MARCORSYSCOM had obtained the additional
legal and safety reviews and approvals needed for the GBD-IIIC laser solution.
Simultaneously, the I MEF was rotating forward and replacing the II MEF in Iraq.

With the rotation of MEFs, progress stalled in fulfilling the urgent request for laser dazzlers.
MCCDC did not follow the urgent needs process outlined by the Marine Administrative
Message (MARADMIN) 424/04, “OIF III Urgent Universal Need Statement (UNS)
Process,” September 28, 2004. MARADMIN states once MCCDC identifies a proposed
                                           solution, the Chairman, CDIB, should immediately
        With the rotation of MEFs,         review the proposed solution to determine whether
     progress stalled in fulfilling the    it is a viable option and ready for MROC approval.
    urgent request for laser dazzlers.     Instead, the Chairman, CDIB, deferred the
                                           processing of the urgent request and directed
MCCDC’s Non-Lethal Weapons Branch to seek I MEF (Forward) agreement of the
GBD-IIIC laser solution because the I MEF (Forward) replaced the II MEF (Forward).
However, after 4 months of deliberation, the I MEF (Forward) did not agree with MCCDC
on the laser solution. According to the former Chief of Staff, I MEF (Forward), the
Commanding General, MCCDC, visited the I MEF (Forward) and learned of the status of
unfulfilled urgent requirements in the summer of 2006. The former Chief of Staff also stated
that after the visit by the Commanding General, MCCDC, solutions to urgent requirements
began to be fielded to theater. On June 29, 2006, the CDIB resumed processing the
GBD-IIIC laser as the solution to the urgent request. An additional 2 months elapsed for the



                                               5
administrative processing of the urgent request, through the CDIB and the Office of Deputy
Commandant for Combat Development and Integration, before MROC approval was sought.

Improvement Needed in the Oversight of the Urgent
Needs Process
Leadership at MCCDC and I MEF (Forward) did not provide sufficient oversight or
effectively monitor the progress of the laser dazzler urgent request. MCCDC and the
I MEF (Forward) wasted nearly 4 months disagreeing on the laser dazzler solution. An
additional 2 months elapsed because MCCDC lacked efficiency in the administrative
processing of the urgent request for a nonlethal laser dazzler capability. This breakdown left
Marine units without critical equipment needed to support the security mission. See
Appendix D for a timeline of events identifying the period of delay in the urgent needs
process.

Disagreement Between MCCDC and I MEF (Forward)
I MEF (Forward) and MCCDC disagreed about the proposed viable solution for the nonlethal
laser dazzler capability, and a communication breakdown between the commands caused an
impasse. Even though the GBD-IIIC laser met the threshold level performance requirements,
satisfied the legal and treaty reviews, and received an LSRB recommendation, I MEF
(Forward) wanted the CHPLD laser even if fielding the capability would be delayed. The
former Deputy Commandant for Combat Development and Integration and the former
Commanding General, I MEF (Forward), allowed their staff to disagree over the proposed
viable solution and did not get involved when an agreement was not reached.

MCCDC’s Non-Lethal Weapons Branch and I MEF’s (Forward) Science, Technology,
and Innovation Division (G-9) deliberated 4 months about accepting the GBD-IIIC laser
without resolution. In an attempt to resolve the conflict, on June 12, 2006, MCCDC and
MARCORSYSCOM sent a coordinated Naval message requesting I MEF (Forward) to make
a final decision on the GBD-IIIC laser suitability and indicated that changing the proposed
solution would delay fielding even longer. The I MEF (Forward) Assistant Chief of Staff for
G-9 responded that the I MEF (Forward) did not want the GBD-IIIC laser. The I MEF
(Forward) wanted the CHPLD. By the end of June 2006, MCCDC and the I MEF (Forward)
still had not reached an agreement.

The former Deputy Commanding General, I MEF (Forward), stated that he was aware of the
disagreement and he had discussed the disagreement with the former Commanding General.
According to the former Deputy Commanding General, he did not have a preferred laser
solution; however, the Assistant Chief of Staff, G-9, preferred the CHPLD. The former
Deputy Commanding General supported G-9’s preference and allowed discussion with
MCCDC to continue. The former Deputy Commanding General stated that, in hindsight, he
should have intervened to resolve the disagreement.




                                              6
Administrative Delays
An additional 2 months elapsed because MCCDC lacked efficiency in the administrative
processing of the urgent request for a nonlethal laser dazzler capability. The timeline for the
final processing was as follows:

    •   14 days elapsed to document the CDIB Chairman decision to recommend the
        GBD-IIIC laser to the Deputy Commandant for Combat Development and
        Integration;

    •   21 days elapsed for the Deputy Commandant to approve the GBD-IIIC laser as the
        course of action; and

    •   32 days elapsed for the Deputy Commandant to prepare a briefing package needed 5
        for MROC approval.

Concurrently, MCCDC accommodated the I MEF (Forward) preference and began obtaining
the additional testing needed for the Navy LSRB approval of the CHPLD. However, the
CHPLD did not pass the Dahlgren laser hazard evaluation, and the Navy LSRB did not
approve the safety and use of the CHPLD.

Marines Left Without a Laser Dazzler for 6 Months
Marines deployed to Iraq in 2006 were left without a laser dazzler capability for 6 months.
The I MEF (Forward) continued to depend on smoke signals and flares to secure
checkpoints, entry control points, convoys, and perimeter positions but still needed a
nonlethal laser capability to aid them in their security mission. The lack of a nonlethal laser
dazzler capability increased the risk of unwarranted escalation of force incidents and the
difficulty of safeguarding civilians when the approaching vehicles were moving too fast or
too close to Marine positions without noticing the warning signs.

Contracts Awarded for Laser Dazzlers
Once the MROC approved the GBD-IIIC laser solution on September 15, 2006, the Deputy
Commandant for Combat Development and Integration immediately issued a statement of
need to the MARCORSYSCOM documenting the MROC approval and funding
authorization for the purchase of 400 GBD-IIIC lasers. The MARCORSYSCOM
expeditiously awarded a contract to B.E. Meyers for 400 GBD-IIIC lasers 43 days later, on
November 1, 2006.




5
  MCCDC had to submit the briefing package three times to the MROC before the briefing package was
accepted. The first package submitted did not include available funding for procuring the GBD-IIIC laser. The
second package submitted contained extraneous information that the MROC Secretariat wanted removed. The
MROC accepted the third package submitted.


                                                      7
Purchase of the 28 CHPLDs by I MEF (Forward)
Nine days after MARCORSYSCOM awarded the contract for 400 GBD-IIIC lasers,
I MEF (Forward) purchased 28 CHPLDs from Genesisone General Trading and Supplies,
Safat, Kuwait, for $323,324. The former Chief of Staff, I MEF (Forward), stated that he was
                                        unaware that MARCORSYSCOM had purchased the
            Nine days after             GBD-IIIC lasers. He also stated that he was aware
     MARCORSYSCOM awarded               that a year had passed and the operating forces were
    the contract for 400 GBD-IIIC       still without a laser dazzler capability. According to
       lasers, I MEF (Forward)          the Deputy Commanding General, I MEF (Forward),
        purchased 28 CHPLDs.            the Commanding General authorized the purchase of
                                        the 28 CHPLDs to test them in one of Iraq’s
high-threat areas. A contracting officer with the Joint Contracting Command-Iraq/
Afghanistan awarded the contract on November 10, 2006. I MEF (Forward) did not obtain
permission or approval from MCCDC, MARCORSYSCOM, or the MROC before
purchasing the CHPLDs. Moreover, the LSRB had not approved the CHPLD for safety and
use.

The I MEF (Forward) did not follow the urgent needs process when purchasing the CHPLDs.
The I MEF (Forward) should have followed the urgent needs process to ensure that the
Marines would receive a viable solution that fulfilled the capability needed and met all the
legal and safety requirements. The former Deputy Commanding General, I MEF (Forward),
stated that I MEF (Forward) purchased 28 CHPLDs because MCCDC took too long to fulfill
the urgent request and believed that the CHPLD was a better and less expensive laser. In
December 2006, the Commander of United State Marine Forces Central Command put an
immediate halt on the use of the CHPLD because Navy LSRB had not provided a positive
safety recommendation for these lasers. Because the I MEF (Forward) acquired the CHPLDs
without obtaining the necessary legal and safety approvals, the Commandant of the Marine
Corps should review the circumstances that led to the purchase of the 28 CHPLDs and, if
appropriate, initiate administrative action.

According to the former Deputy Commanding General, the I MEF (Forward) never fielded
the 28 CHPLDs. The MARCORSYSCOM Program Manager, Optics and Nonlethal Systems
Infantry Weapons System, evaluated the 28 CHPLDs in June 2009 and reported that the
28 CHPLDs showed no discernable sign of wear and tear from use in operational theater.
Also, the program manager identified multiple manufacturing defects with the CHPLD. The
report concluded that 9 of the 28 CHPLDs were not operable and removal of the battery was
difficult. In addition, 16 of the 28 CHPLDs did not have appropriate hazard distance labels
in accordance with Navy and Marine laser safety requirements. Engineers from the DoD
Office of Inspector General confirmed the program manager’s findings in their August 2009
evaluation.




                                              8
Management Actions Taken to Improve Process
The Marine Corps issued MCO 3900.17 in October 2008 to improve the urgent needs
process. The order requires the Deputy Commandant for Combat Development and
Integration to maintain a system for processing and tracking urgent requests. The
MCCDC developed the Web-based Virtual Urgent Universal Need Statement system to
provide visibility of the review chain 6 and status for urgent requests. The Web-based
system allows commands the visibility to follow the status of their urgent request and
notifies users when the request has been updated. MCCDC issued a MARADMIN in
February 2009 notifying Marine Corps Total Force of the improved urgent needs process.

Conclusion
MCCDC did not respond to the II MEF (Forward) urgent request for a nonlethal laser
dazzler capability in a timely manner. MCCDC allowed I MEF (Forward) insistence for
an unapproved laser dazzler and inefficient administrative processing to cause unnecessary
delays. These delays left the Marines deployed to Iraq in 2006 without a critical nonlethal
weapon to more effectively perform security missions for nearly 6 months. The
Chairman, CDIB, should not have delayed the processing of the GBD-IIIC laser dazzler to
seek agreement from I MEF (Forward). Once the Navy LSRB approved the safety and
use of the GBD-IIIC laser, the CDIB should have immediately evaluated whether the
GBD-IIIC laser met the requirements of the urgent request, immediately obtained the
approval of the Deputy Commandant for Combat Development and Integration, and
forwarded it to the MROC for its review and approval. However, Marine Corps issuance
of MCO 3900.17 and the establishment of the Virtual Urgent Universal Need Statement
system should improve the efficiencies of the urgent needs process. In addition, the I MEF
(Forward) should not have purchased the 28 CHPLDs without obtaining the legal and
safety approvals needed for nonlethal lasers.

Management Comments on the Finding and Our
Response
Management Comments
The Deputy Commandant for Combat Development and Integration responded for the
Commandant of the Marine Corps. The Deputy Commandant disagreed with the finding
that MCCDC did not respond in a timely manner to the urgent request for a nonlethal laser
dazzler. He considered both MCCDC and MARCORSYSCOM responses prompt and
appropriate. The Deputy Commandant justified the extended response time as necessary
because providing a laser that complied with DoD laser policy and Laws of Armed
Conflict and responding to two different Commanding Generals, commanding different
missions and wanting different laser solutions, were challenging. He indicated that
MCCDC could have provided the I MEF (Forward) with a laser that complied with Laws
of Armed Conflict and the DoD laser directives, but the Commanding General
I MEF (Forward) and Deputy Commanding General I MEF (Forward) rejected it. The


6
    The review chain may include the Marine Forces Commands, MCCDC, CDIB, and MARCORSYSCOM.

                                              9
Deputy Commandant stated that the I MEF (Forward) Commanding General requested a
laser that MCCDC could not legally deliver. The Deputy Commandant stated that
MCCDC worked diligently to minimize any delays and field an approved laser that the
I MEF (Forward) would use. The Deputy Commandant stated that the former
Commanding General, MCCDC, decided to fulfill the urgent request with the approved
laser despite I MEF (Forward) having rejected it because the laser could be rapidly
acquired and safely employed. The Deputy Commandant added that MCCDC accepted
the risk that Marines may not use the laser.

Our Response
We recognize MCCDC’s challenges fulfilling the laser dazzler request. Specifically, we
acknowledge that fulfilling the laser dazzler urgent request required legal and safety
approval. Additionally, we recognize that different Commanding Generals wanted
different laser solutions and that MCCDC initially responded promptly to the urgent
request. However, delays occurred after MCCDC obtained the legal and safety approvals
to field the laser. The several months of deliberation between MCCDC and I MEF
(Forward) was not a prudent use of time.

The decision to delay for 4 months the processing of the laser dazzler requirement was
unnecessary. Little changed in the 4 months that MCCDC took to decide whether to field
the only laser that complied with the safety and legal requirements. MCCDC and the
I MEF (Forward) Commanding Generals still did not reach an agreement on a laser
solution. The concept of employment for using the laser to support combat missions did
not change. Additional legal and safety approvals were not obtained. Further, MCCDC
contracted for the same laser in November 2006 that was available in February 2006.
MCCDC should have responded promptly with the laser solution that the Deputy
Commandant described could be “rapidly acquired and safely employed.”

Recommendation, Management Comments, and Our
Response
1. We recommend that the Commandant of the Marine Corps perform a review of
the circumstances that led to the purchase of the 28 Compact High Power Laser
Dazzlers and, if appropriate, initiate administrative action.

Marine Corps Comments
The Deputy Commandant for Combat Development and Integration responded for the
Commandant of the Marine Corps. The Deputy Commandant agreed with the
recommendation and stated that the Marine Corps will review the circumstances relating
to the purchase of the 28 Compact High Power Laser Dazzlers. The Marine Corps plans
to provide a status report of action taken to implement the recommendation by March 2,
2011.

Our Response
The Deputy Commandant for Combat Development and Integration comments are
responsive, and the actions meet the intent of the recommendation.


                                          10
Department of the Navy Comments
Although not required to comment, the Assistant Secretary of the Navy (Research,
Development and Acquisition) agreed with the recommendation.




                                          11
Appendix A. Scope and Methodology
This is the second audit initiated in response to the Assistant Commandant of the Marine
Corps February 2008 request. We initiated the first audit in March 2008 and issued DoD IG
Report No. D-2009-030, “Marine Corps Implementation of the Urgent Universal Needs
Process for Mine Resistant Ambush Protected Vehicles,” December 8, 2008.

We conducted this performance audit from April 2009 through January 2011 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We collected, reviewed, and analyzed documents dated from July 1996 through
September 2009. We reviewed MARADMINs and MCOs to help identify the urgent needs
process. We also reviewed Air Force Research Laboratory testing results, concept of
employment, Dahlgren testing results, and legal and treaty reviews to determine whether
MCCDC and MARCORSYSCOM had the required testing and legal reviews completed for
the nonlethal weapons process. Additionally, we reviewed the urgent request, CDIB
memoranda, the MROC Decision Memorandum, and the Urgent Statement of Need to
determine whether MCCDC and MARCORSYSCOM correctly followed the urgent needs
process. Also, we reviewed the contract file as well as e-mail communications among
MCCDC, Joint Non-Lethal Weapons Directorate, MARCORSYSCOM, II MEF (Forward),
and I MEF (Forward) from August 2005 to June 2007 relating to the selection of a laser
dazzler.

We conducted interviews with DoD officers and civilians from the following Marine forces,
commands, and councils to understand the urgent needs process: I MEF (Forward),
II MEF (Forward), MCCDC, MARCOPRSYSCOM and MROC. We also conducted
interviews of Dahlgren, Air Force Research Laboratory, Joint Non-Lethal Weapons
Directorate, and LSRB personnel to help identify whether the laser dazzler systems were
adequately tested and evaluated in accordance with policy. Additionally, we interviewed
staff from the contractors LE Systems and B.E. Meyers that provided the proposed system
solution to the laser dazzler urgent request.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Assistance
The DoD IG Technical Assessment Directorate assisted with the audit to determine the
adequacy of testing performed on the GBD-IIIC laser and CHPLD. The Technical
Assessment Directorate engineers interviewed personnel and reviewed documents obtained
from Joint Non-Lethal Weapons Directorate, Dahlgren, Air Force Research Laboratory, and



                                             12
contractors. In addition, the Technical Assessment Directorate engineers evaluated
the 28 CHPLDs purchased by the I MEF (Forward).

Prior Coverage
During the last 5 years, the Government Accountability Office, the Department of Defense
IG, and the Navy Audit Service have issued two reports discussing the Urgent Universal
Need Statement process and one report discussing nonlethal weapons. Unrestricted
Government Accountability Office reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Navy Audit Service reports can be accessed
at http://www.hq.navy.mil/NavalAudit.

GAO
GAO Report No. GAO-09-344, “DoD Needs to Improve Program Management, Policy, and
Testing to Enhance Ability to Field Operationally Useful Non-Lethal Weapons,”
April 21, 2009

DoD IG
DoD IG Report No. D-2009-030, “Marine Corps Implementation of the Urgent Universal
Needs Process for Mine Resistant Ambush Protected Vehicles,” December 8, 2008

Navy
Navy Audit Service Report No. N2007-0060, “Marine Corps Urgent Universal Need
Statement Process,” September 28, 2007




                                            13
Appendix B. Laser Dazzler Capability Transition
to a Program of Record
The Marine forces still need the laser dazzler capability; however, safe use of the laser is still
a concern. Marine Corps managers are pursuing a safer laser dazzler capability through a
program of record. The initial GBD-IIIC laser was an inherently dangerous system for its
intended use and relies heavily on procedural controls, vice design controls. See Figure B-1
for a picture of the GBD-IIIC laser.


                     Figure B-1. GBD-IIIC Nonlethal Warning Laser




                                        Source: B.E. Meyers




                                                14
Marine Corps acquisition managers identified a temporary solution to make the GBD-IIIC
laser safer by adding a safety control module such as a range finder that is designed to shut
off the dazzling beam when an object enters the hazard area. The GBD-IIIC laser with the
attached safety control module is known as the LA-9/P Visual Disruption Laser. See
Figure B-2 for a picture of the GBD-IIIC laser with the safety control module.

                       Figure B-2. LA-9/P Visual Disruption Laser




                                       Source: B.E. Meyers

Marine Corps managers are developing an ocular interruption device to replace the
GBD-IIIC laser with attached safety control module or LA-9/P Visual Disruption Laser. The
ocular interruption device will be “eye-safe” delivering a nonlethal effect without requiring
the synchronization of interdependent systems. Marine Corps developed an Analysis of
Alternatives and a Capability Development Document for the ocular interruption device.
According to MCCDC personnel, the ocular interruption initiative should transition to the
Engineering and Manufacturing Development Phase of the DoD acquisition life-cycle
process in 2012.




                                               15
Appendix C. Guidance on the Urgent Needs
Process and Nonlethal Lasers
Marine Corps Urgent Needs Policy
The Marine Corps urgent needs process enables deployed commanders to request equipment
critical to the mission and needed by operation forces conducting combat or contingency
operations. Through the urgent needs process, the Marine Corps is able to procure
equipment faster than through the Defense acquisition process. The Marine Corps issued
policy in 2002 establishing the urgent needs process.

Marine Corps Expeditionary Force Development System
MCO 3900.15A, “Marine Corps Expeditionary Force Development System,”
November 26, 2002, establishes the Expeditionary Force Development System and provides
guidance for developing future warfighting capabilities needed to meet Marine forces
mission objectives. On March 10, 2008, the Marine Corps updated its Expeditionary Force
Development System policy with MCO 3900.15B, “Marine Corps Expeditionary Force
Development System.”

Marine Administrative Messages
To support contingency operations, the Marine Corps issued MARADMINs that established
guidance for submitting and processing urgent requirements. MARADMINs issued from
October 2002 to January 2006 1 accelerated the standard process to fulfill capability gaps
through the Expeditionary Force Development System and submission of universal need
statements by establishing the urgent universal need statement process.

An urgent universal need statement is designed to provide deployed or preparing-to-deploy
Marines a tool to request capabilities that, if not fulfilled, place the accomplishment of a
mission in jeopardy or increase the risk of casualties. The intent of an urgent universal need
statement was not to field a capability to the entire Marine Corps, but to meet the immediate
operational needs of units deployed or preparing to deploy. The guidance instructed Marines
to submit an urgent universal need statement describing the nature of the need, how it was
identified, and why the need had to be fulfilled in the time frame selected. The guidance also
instructed Marines on how to submit the urgent need request through their chain of command
and instructed MCCDC to conduct an immediate assessment to determine a solution to fulfill
the request and obtain MROC approval for the solution.




1
 These Marine Administrative Messages are MARADMIN 550/02, “Urgent USMC Requirements Generation
Process for Operation Enduring Freedom,” October 6, 2002; MARADMIN 533/03, “OIF II Urgent Universal
Need Statement (UNS) Process,” November 21, 2003; MARADMIN 424/04, “OIF III Urgent Universal Need
Statement (UUNS) Process,” September 28, 2004; and MARADMIN 045/06, “Urgent Universal Need
Statement (UUNS) Process,” January 26, 2006.


                                                 16
Marine Corps Urgent Needs Process and the Urgent Universal
Need Statement
The Marine Corps issued MCO 3900.17, “The Marine Corps Urgent Needs Process (UNP)
and the Urgent Universal Need Statement (Urgent UNS),” October 7, 2008, cancelling the
MARADMINs. This MCO defined the Marine Corps urgent needs process and refined the
guidance for the submission and processing of universal need statements. The updated
guidance established the use of the web-based Virtual Urgent Universal Need Statement
system to improve the timeliness in which urgent needs are addressed and the visibility and
collaboration in the process by senior leaders. Among these leaders are the Deputy
Commandant for Combat Development and Integration, MARCORSYSCOM, Chairman of
the CDIB, and the supported Commander Marine Forces.

Nonlethal Weapons and Laser Policy
In addition to the urgent needs process guidance, additional policy compliance is required for
acquiring and fielding nonlethal lasers. A memorandum issued by the Secretary of Defense
in 1997 and a Department of Defense Directive issued in 1996 provide policy on the use of
lasers and non-lethal weapons by the Department of Defense. The Chief of Naval
Operations, the Marine Corps, Code of Federal Regulations (CFR), and American National
Standards Institute (ANSI) issued instructions, orders, regulations, and standards related to
the development, acquisition, testing, and use of nonlethal lasers.

DoD Policy on Use of Blinding Lasers
The Secretary of Defense issued policy on the use of blinding lasers on January 7, 1997. The
policy prohibited the use, in the DoD, of lasers designed to cause permanent blindness.
However, the policy acknowledged the benefits that lasers provide to military operations,
such as targeting, range-fining, and reducing collateral damage to civilian lives. The policy
also recognized that accidental eye injuries may occur with the use of lasers not designed to
cause permanent blindness. As a consequence, the policy states that the DoD will strive to
minimize these types of injuries through training and doctrine, when using lasers not
specifically designed to cause permanent blindness.

Policy for Nonlethal Weapons
The DoD Directive 3000.3, “Policy for Non-Lethal Weapons,” July 9, 1996, allowed the
DoD to design nonlethal weapons to reinforce deterrence and expand the range of options
available to commanders. The policy allows U.S. Forces to use nonlethal weapons to:

    • discourage, prevent, or delay hostile environments;
    • limit escalation of force incidents;
    • take military action in situations where use of lethal force is not the preferred option;
       and
    • better protect our forces.




                                              17
The policy also required the Secretaries of Military Departments to ensure that a legal review
for the acquisition of all nonlethal weapons is conducted to ensure that the U.S. Government
is complying with applicable treaties, international laws, and laws of war.

Navy Laser Hazard Control Program
The Office of the Chief of Naval Operations Instruction 5100.27A/MCO 5104.1B, “Navy
Laser Hazards Control Program,” September 24, 2002, requires the identification and control
of laser radiation hazards and applies to the design, use, and disposal of all equipment and
systems capable of producing laser radiation. 2 The Instruction and Order require
commanders of all systems commands and all Navy and Marine Corps program directors and
project managers to:

    •    review the purpose of proposed lasers to determine whether they must be deemed as
         military-exempt lasers; 3
    •    grant exemptions for meeting title 21 CFR Part 1040, “Performance Standards for
         Light-Emitting Productions”; 4
    •    ensure that Navy Laser Safety Review Board (LSRB) reviews all classes of lasers
         used for combat; and
    •    ensure that Dahlgren reviews the laser and measures the nominal ocular hazard
         distance and other safety parameters of all lasers prior to the LSRB review.

Use and Acquisition of Nonlethal Weapons
MCO 3430.7, “Marines Corps Program for the Use and Acquisition of Non-Lethal
Weapons,” July 31, 1997, establishes procedures for the request, approval, and employment
of nonlethal weapons used in contingency operations and armed conflict. The MCO states:

    •    Commanders should submit the request for nonlethal weapons to the Commanding
         General, MCCDC;
    •    Commanding General, MCCDC, should coordinate the request with the Commandant
         of the Marine Corps and Operational Law Branch to ensure that the request complies
         with established policy and legal requirements; and
    •    Commanding General, MCCDC, should coordinate with the Commander,
         MARCORSYSCOM, to initiate the acquisition process.


2
   The updated policy, Chief of Naval Operations Instruction 5100.27B/MCO 5104.1C, “Navy Laser Hazards
Control Program,” May 2, 2008, also requires the identification and control of laser radiation hazards and
applies to the design, use, and disposal of all equipment and systems capable of producing laser radiation.
3
  A Military-exempt laser is a laser designed for actual combat, combat training operations, or classified in the
interest of national security. When a laser meets these criteria, the laser may be exempted from complying with
21 CFR 1040 and must comply instead with DoD laser safety designed requirements. In the case of the Navy,
Military-exempt lasers must comply with the laser safety design requirements in Chief of Naval Operations
Instruction 5100.27A/MCO 5104.1B.
4
  Title 21 CFR 1040 requires laser products to incorporate certain safety features, which may include warning
lights, warning labels, and housing interlocks.


                                                       18
Performance Standards for Light-Emitting Products
Title 21, CFR, section 1040, “Performance Standards for Light-Emitting Products,” (2005)
(21 CFR 1040) requires that all laser products, regardless of their class, should have at least
one safety interlock for each portion of the protective housing and each laser product should
have caution labels that identify the class of laser and warn of laser radiation. Since,
July 1976, DoD was exempt from the provisions of 21 CFR 1040 for laser products that are
used exclusively by DoD components and that are designed for actual combat or combat
training operations or are classified in the interest of national security. In July 2002, the FDA
issued “Guidance on the Department of Defense Exemption from the Food and Drug
Administration (FDA) Performance Standard for Laser Products; Guidance for Industry and
FDA,” Laser Notice No. 52, to provide guidance on exemptions for laser products that do not
comply with FDA safety and health requirements.

Laser Hazard Classifications
ANSI established laser hazard classifications to guide the safe use of lasers. ANSI Z136.1–
2007, “American National Standard for the Safe Use of Lasers,” identifies the criteria for
determining the level of hazard inherent in a laser system and the extent of safety control
measures required for safe use of the laser. Lasers can range from class 1 lasers, which are
safe for direct beam viewing under most conditions, to class 4 lasers, which require the most
strict controls. ANSI laser standards are tailored to single-source lasers, which are lasers
with a single light cavity. ANSI laser standards do not specifically discuss multi-source
lasers, which are lasers with multiple light cavities.




                                               19
Appendix D. Timeline for Fulfilling the Urgent
Request for Laser Dazzler Capability
The timeline highlights the Marine Corps management actions of the urgent needs process
followed to fulfill the urgent request for laser dazzler capability. Each action is represented
by a rectangle. The dates under the rectangles indicate when the action occurred. The solid
arrows pointing down represent the passage of time. The gray area represents the delays in
the urgent needs process. The triangles represent when the action could have occurred if the
delays in the urgent needs process had not occurred. The dotted arrows pointing across
represent the passage of time, had the delays in the urgent needs process not occurred. * The
event in blue indicates when the Marine Expeditionary Forces rotated and is outside the
urgent needs process. The color, number, and letters in the timeline reflect an action
described in the left column.

    Key:
           Objective A                                Estimated Occurrence of Event Without Delay
                                                      in Urgent Needs Process
           Objective B
                                                      Actual Passage of Time
           Objective C
                                                      Estimated Passage of Time Without Delay in
           Objective D                                Urgent Needs Process

           Breakdown Period in Urgent Needs Process
                                                      Marine Expeditionary Forces Rotation
           Event Outside Urgent Needs Process

           Event Inside Urgent Needs Process


                           Acronyms
    AFRL – Air Force Research Laboratory
    CDIB – Capabilities Development Integration Board
    CG – Commanding General
    DC, CD&I – Deputy Commandant, Combat Development
    and Integration
    GBD-IIIC – Green Beam Designator-III Custom
    JNLWD – Joint Non-Lethal Weapons Directorate
    LSRB – Navy Laser Safety Review Board
    MARCENT – U.S. Marine Forces Central Command
    MCCDC – Marine Corps Combat Development Command
    MCSC – Marine Corps Systems Command
    MEF – Marine Expeditionary Force
    MROC – Marine Requirement Oversight Council
    NTIP – Naval Treaty Implementation Program
    USoN – Urgent Statement of Need




*
   The audit team calculated the passage of time represented by the downward facing arrows by
subtracting 128 days to the actual date of the event. From February 22, 2006, through June 29, 2006,
is 128 days.


                                                      20
A. Identify capability gap and submit urgent request                                                                                                                                                           February 22 to June 29, 2006           June 30 to September 15, 2006
                                                                                                                                                                                                              Nearly 4 months elapsed because          Additional 2 months elapsed
                                                                                                                                                                                                               MCCDC entertained the I MEF                because administrative
1. CG, II MEF (Forward), initiated urgent request for laser dazzler capability.        1                                                                                                                         (Forward) insistence for an                processing lagged.
                                                                                     June 9, 2005                                                                                                             unapproved laser dazzler solution.
2. MARCENT approved urgent request and submitted request to MCCDC for
   processing.                                                                                               2
                                                                                                July 27, 2005
B. Identify course of action to resolve urgent need

1. MCCDC received laser dazzler urgent request and coordinated request with
   JNLWD to identify materiel solution.
                                                                                                                    1                                                                                                      Ten days after MCSC awarded the
                                                                                                                                                                                                                        Lack of sufficient oversight and effective
                                                                                                    July 28, 2005
                                                                                                                                                                                                                         monitoring of the process of the urgent
2. In response to JNLWD request for hazard analysis, AFRL reported on the results
   of hazard analysis conducted on 4 lasers.
                                                                                                                                         2                                                                                  contract for 400 GBD-IIIC, I MEF
                                                                                                                                                                                                                        request caused unnecessary delays in the
                                                                                                                    September 16, 2005                                                                                         fielding of a laser dazzler.
3. Based on AFRL hazard analysis results, CG, MCSC, recommended the GBD-IIIC
   laser to the CG, II MEF (Forward).
                                                                                                                            October 3, 2005
                                                                                                                                                3                                                                          (Forward) purchased 28 CHPLDs…
4. CG, II MEF (Forward), agreed to accept GBD-IIIC laser to fulfill urgent need.
                                                                                                                                                    4
5. MCCDC and MCSC obtained additional approval needed for nonlethal weapons                                                              October 9, 2005
   and lasers.

   a. Dahlgren Division evaluated GBD-IIIC laser for safety and radiation hazard.
      Dahlgren also evaluated the GBD-IIIC laser compliance with Navy and Marine
      Corps laser policy.                                                                                                                                  5.a
                                                                                                                                         November 2, 2005
   b. MCCDC developed concept of employment for GBD-IIIC laser use in combat.
                                                                                                                                                                 5.b
   c. Naval Judge Advocate General determined GBD-IIIC laser complied with                                                                     November 17, 2005
      treaty obligations, Federal laws, and international laws of armed conflicts.
                                                                                                                                                                            5.c
   d. NTIP director determined GBD-IIIC laser complied with arms control treaties                                                                           December 22, 2005
      and international agreements.
                                                                                                                                                                                    5.d
   e. Chairman of the Navy LSRB approved fielding of the GBD-IIIC.                                                                                                      January 10, 2006            5.e
**At this point, MCCDC identifed a viable solution as potential course of action.                                                                                                   February 21, 2006
  However, the solution was not immediately submitted for CDIB; DC, CD&I;
  and MROC approval.**

           Marine Expeditionary Forces rotated in March 2006. I
           MEF (Forward) replaced II MEF (Forward).
                                                                                                                                                                                                        March 2006

C. Obtain immediate MROC approval for identified course of
   action

1. CDIB recommended GBD-IIIC laser as course of action to the                                                                                                                                             1                                                1
   DC, CD&I.                                                                                                                                                                          February 22, 2006                                                 June 29, 2006
2. DC, CD&I, accepted CDIB recommendation and approved the GBD-IIIC                                                                                                                                                    2                                                 2
   laser as course of action.                                                                                                                                                                                   March 30, 2006                                  August 4, 2006
3. MROC approved the GBD-IIIC as course of action for the laser                                                                                                                                                                        3                                                  3
   dazzlers urgent request.                                                                                                                                                                                                   May 11, 2006                                   September 15, 2006

D. Provide rapid procurement of a materiel solution that meets
   urgent need
                                                                                                                                                                                                                                             1                                                1
1. DC, CD&I, issued USoN authorizing MCSC to procure 400                                                                                                                                                                                                                                  September 18, 2006
                                                                                                                                                                                                                                       May 14, 2006
   GBD-IIICs.
                                                                                                                                                                                                                                                          2                                                  2
2. MCSC awarded contract for 400 GBD-IIICs for $3.6 million.                                                                                                                                                                                                                                      November 1, 2006
                                                                                                                                                                                                                                                         June 27, 2006




                                                                               21
22
Glossary
Capability Development Document
A Capability Development Document is a document that captures the information
necessary to develop a proposed program(s), normally using an evolutionary acquisition
strategy. The Capability Development Document outlines an affordable increment of
militarily useful, logistically supportable, and technically mature capability. The
Capability Development Document supports a decision to entry into the Engineering and
Manufacturing Development phase.

Course of Action
A course of action is a possible plan open to an individual or commander that would
accomplish, or is related to, the accomplishment of the mission.

Design Controls
Design controls are design features or devices that are applied to a laser or its
environment for the purpose of reducing laser hazards. Design controls are considered to
be most effective types of controls such as key controls, beam stop, audible source, and
warning lights. Design controls are also known as engineering controls.

Expeditionary Force Development System
The Expeditionary Force Development System replaced the Combat Development
System. Expeditionary Force Development System supports the combat requirement
generation role by translating proposed warfighting capabilities into valid requirements.
Expeditionary Force Development System monitors emerging areas such as the capstone
concept of Expeditionary Maneuver Warfare, Joint Concept Development and
Experimentation, as well as Science and Technology Development.

Glare
Glare is an intense, bright light capable of overpowering or obscuring the vision.

Laser
Laser is an acronym for light amplification by stimulated emission of radiation. Laser is
a device that emits a collimated beam of either visible or invisible electromagnetic
radiation (light).

Laser Classification
Laser Classification is an indication of the beam hazard level of a laser or laser system
during normal operation. The hazard level of a laser or laser system is represented by a
number or a number and capital letter. The laser classifications are Class 1, Class 1M,
Class 2, Class 2M, Class 3R, Class 3B, and Class 4. In general, the potential beam
hazard level increases in the same order.




                                            23
Military-Exempt Laser
A Military-exempt laser is a laser designed for actual combat, combat training operations,
or classified in the interest of national security. When a laser meets these criteria, the
laser can be exempted from complying with 21 CFR 1040 and must comply instead with
DoD laser safety design requirements. In the case of the Navy and Marine Corps,
Military-exempt lasers must comply with the laser safety design requirements in the
Office of the Chief of Naval Operations Instruction 5100.27A and MCO 5104.1B, “Navy
Laser Hazards Control Program.”

Multi-Source Laser
A multi-source laser is a laser with multiple light cavities.

Nominal Ocular Hazard Distance
The nominal ocular hazard distance is the distance along the laser beam to the point at
which the beam does not present a hazard to a bystander. Any location along the laser
beam before that point is considered a hazard zone. Any distance at and beyond the
nominal ocular hazard distance will not present a hazard to the bystander.

Objective Value
Objective value is the desired goal associated with a performance attribute, beyond which
any gain in utility does not warrant additional expenditure. The objective value is an
operationally significant increment above the threshold.

Ocular Interruption Device
The Ocular Interruption Device is a weapons-mounted or hand-held device capable of
delivering a glare effect to the vision of targeted personnel.

Procedural Controls
Procedural controls consist of procedures and information provided to personnel for the
purpose of reducing laser hazards, such as warning signs and labels, standard operating
procedures, and training. Procedural controls are also known as administrative controls.

Program of Record
A program of record is an acquisition program recorded in the current Future Years
Defense program or as updated from the last Future Years Defense program by approved
program documents. Program documents included the acquisition program baseline,
acquisition strategy, or selected acquisition report.

Single-Source Laser
A single-source laser is a laser with a single light cavity.

Threshold Value
The threshold value is the minimum acceptable operational value below which the utility
of the system becomes questionable.


                                              24
Urgent Universal Need Statement
An urgent universal need statement is an immediate request from units that are deployed
or are awaiting imminent deployment to a combat theater. The urgent universal need
statement is a request for a capability that, if not filled, places the accomplishment of the
units’ mission in jeopardy or unduly increases the risk of casualties.




                                             25
Marine Corps Comments




                 Click to add JPEG file
Click to add JPEG file
Click to add JPEG file
Department of the Navy Comments




                  Click to add JPEG file
